                                        AUDIT




 GOVTRIP USE AND MONITORING BY
 THE U.S. DEPARTMENT OF THE
 INTERIOR




Report No.: WR-EV-MOA-0006-2011   September 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                              SEP 0,9 2013
Memorandum

To:            Rhea Suh
               Assistant Secretary for , olicy, Management and Budget

From:          Mary L. Kendall             (~cfldP
               Deputy Inspector Genera~ '-7-/\

Subject:       Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
               Interior
               Report No. WR-EV -MOA-0006-2011

        This memorandum transmits the results from our audit ofthe U.S. Department of the
Interior's (DOl) e-travel system, including GovTrip. Specifically, we assessed DOl's ability to
manage and reconcile its various systems to determine whether data and dollars spent are
complete and accurate.

       We found weaknesses in the design of the current e-travel system that should be
addressed in the future e-travel system, which DOl expects to come online in November 2013.
We make 13 recommendations in this report to improve travel planning efficacy and accounting
accuracy.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.




                               Office of Inspector General I Washington, DC
Table of Contents

Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Missing Records .................................................................................................. 4
   Accuracy of Traveler Documents, Transaction History, and Routing Lists ....... 5
      Traveler Documents ........................................................................................ 5
      Transaction Histories ....................................................................................... 5
      Routing Lists.................................................................................................... 5
   Override of Internal Controls .............................................................................. 6
   Reconciliation...................................................................................................... 7
   Minimum Testing Standards ............................................................................... 7
   Audit Check Resolution ...................................................................................... 8
   Delegation of Administrative Rights................................................................... 9
   Security of Personally Identifiable Information .................................................. 9
   Availability and Reliability of Travel Data ....................................................... 10
      Authorizations Without Corresponding Vouchers ........................................ 10
      Vouchers Not Submitted ............................................................................... 10
      Vouchers Partially Approved ........................................................................ 10
   E-Travel Performance Management ................................................................. 11

Conclusion and Recommendations ....................................................................... 13
   Conclusion......................................................................................................... 13
   Recommendations ............................................................................................. 13

Appendix 1: Scope and Methodology................................................................... 15
      Scope ............................................................................................................. 15
      Methodology.................................................................................................. 16
      Limitations ..................................................................................................... 16
Appendix 2: DOI Response .................................................................................. 18

Appendix 3: Status of Recommendations ............................................................. 33
Results in Brief
The U.S. Department of the Interior (DOI) spends about a quarter of a billion
dollars each year on travel, making management of travel funds across DOI and
its bureaus a priority. Successful travel fund management is even more critical
because of Congress’ and the Office of Management and Budget’s focus on travel
costs savings and reductions. DOI has contracted for an e-travel system since
2007, which has automated various booking, accounting, and internal controls for
travel management.

Our audit of DOI’s e-travel system, including GovTrip, revealed significant
weaknesses in the design of the system and DOI’s management of the travel
process. We found that inadequate contract requirements and system
implementation caused internal control deficiencies and inhibited DOI’s ability to
manage travel. In addition, DOI’s management of the travel process has not
ensured that Federal travel rules and regulations are followed, travel costs are
adequately documented and valid, and travel is consistently managed.

This report is the final installment of a series of 8 memorandum reports and 17
Notice of Potential Findings and Recommendations reports to individual bureau
offices, which detailed travel management deficiencies found unique to each
bureau or office. 1 In this report, we identify common issues and systemic
weaknesses in the current system and recommend ways DOI can improve travel
management through good internal controls to save money, reduce travel
documentation shortcomings, and enhance accountability. A new electronic travel
system, slated to come online in November 2013, presents an opportunity to
prevent e-travel weaknesses and deficiencies during implementation and
throughout the life of the contract.

In this report, we make 13 recommendations to assist DOI in its transition to the
new e-travel system.




1
  The eight memorandum reports, when finalized, will be available on the Office of Inspector General’s Web
site at http://www.doi.gov/oig/index.cfm.


                                                                                                         1
Introduction
Objective
Our objective was to assess the U.S. Department of the Interior’s (DOI)
implementation, use, and monitoring of GovTrip as a part of its overall travel
system. Specifically, we assessed DOI’s ability to manage and reconcile its
various financial and travel systems to determine whether data and dollars spent
were complete and accurate. Our review of fiscal years 2009 and 2010 included
testing more than 700 travel vouchers, reviewing 300 charge card statements, and
interviewing 100 travel personnel across DOI. A complete description of our
scope and methodology is located in Appendix 1.

Background
DOI manages approximately $250 million a year for travel through GovTrip. We
initiated an audit of DOI’s GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation. The limitations we found
included DOI’s and its bureaus’ inability to freely access travel system reports
from GovTrip and the uncertainty of the reliability of the data in those reports. 2
We determined that the risks presented by these limitations were significant
enough to warrant further review.

Since August 2007, DOI has used GovTrip under a task order from the U.S.
General Services Administration’s (GSA) master contract with Northrop
Grumman for E-Government Travel Services (ETS). GSA’s master contract
establishes GovTrip’s general requirements, and DOI’s task order lays out other
requirements specific to DOI’s needs. GSA’s master contract is set to expire in
November 2013, at which time DOI expects a new system to take the place of
GovTrip under a new GSA contract (ETS-2).

GSA has selected a single vendor for ETS-2, though the system implementation
process is behind schedule. The bid process was initially delayed by legal
challenges from one of the bidding companies, and a current protest of the award
is delaying the process even further. ETS-2’s general requirements include more
internal control points and reporting capabilities, but much about ETS-2’s specific
requirements and controls is still unknown. The unknown and untested
components of the new contract and travel system present an opportunity and a
responsibility to both assess how well DOI uses the current system and to
determine ways in which it can be improved prior to the transition to ETS-2.
Both GovTrip and ETS-2 have the Federal Travel Regulations as part of their
foundation, which provide the regulatory framework for the approval, processing,
and payment of travel costs within the Federal Government. The GovTrip system


2
 “U.S. Department of the Interior’s Video Teleconferencing Usage,” WR-EV-MOA-0004-2010. December
2011.


                                                                                                   2
has worked in concert with these regulations to facilitate travel planning and
payment, as will ETS-2 when it is in place.

In performing our current review, we tested travel documentation and charges for
fiscal years 2009 and 2010 related to 8 bureaus, and subsequently issued 8
memorandum reports and 17 Notices of Potential Findings and Recommendations
that identified travel management issues across DOI, 3 including—

    •    user profiles that had been deleted;
    •    travel documents that were missing;
    •    Autobooking that was used unnecessarily;
    •    travel that was completed before authorizations were created and
         approved;
    •    expense documentation that was missing;
    •    claimed costs that were inconsistent with supporting documentation;
    •    lodging and per diem costs that were not adjusted to reflect actual costs
         and approved amounts;
    •    justifications for travel method that were missing or incomplete;
    •    software audit flags that were not appropriately addressed by travelers or
         approvers;
    •    traveler and supervisory approval signatures that were missing on charge
         card statements; and
    •    transactions on charge card statements that were not related to, or were
         inconsistent with, travel voucher documentation.




3
  Our audit testing period included data from the former Minerals Management Service before it was
reorganized into three separate entities. For ease of reading, all mentions of the Bureau of Ocean Energy
Management also refer to the Bureau of Safety and Environmental Enforcement and the Office of Natural
Resources Revenue.




                                                                                                            3
Findings
DOI has an opportunity before the new travel system is implemented to prepare
for a smooth transition and successful system launch. DOI can use the lessons
learned from its experience with GovTrip to develop solutions for ETS-2, thus
improving travel planning efficacy and accounting accuracy. Such improvements
would help to ensure a more robust travel program, as envisioned by DOI, while
consistency in policies, auditing, and use of travel reports should further aid
DOI’s travel management efforts.

Based on our audit, we identified the following opportunities for travel
management improvements on a DOI-wide basis.

Missing Records
Travel databases have been compromised by the removal of records from the
active GovTrip production system. Under e-travel, individual users electronically
arrange, document, and claim travel costs, which DOI then pays. To process
travel electronically, profiles are created for individual travelers, who then create
authorizations and vouchers for travel.

We were unable to audit 60 of the 765 vouchers and associated authorizations we
selected for testing, either because the voucher was no longer in GovTrip or the
entire profile for the traveler had been removed from the system. 4 DOI officials
told us that the likely reason documents were not available for review was
because the related user profiles had been removed or detached from the GovTrip
system. Because no audit trail exists in the creation, use, or deletion of user
profiles in GovTrip, this statement could not be verified, nor could changes in
user profiles during the period under review be evaluated. Once records are
removed from the production system, DOI no longer has live access to the data,
and must request the system contractor re-establish the profile in order to gain
access to the data.

 Recommendation

      1. Prevent the removal of user profiles, vouchers, and authorizations from
         the active production system through ETS-2 development and
         implementation.




4
  These vouchers and authorizations that were not tested, or where testing was not completed, are in addition
to those vouchers that were originally selected as part of the random sample but were not reviewed because
DOI limited access to the GovTrip files.


                                                                                                            4
Accuracy of Traveler Documents, Transaction
History, and Routing Lists
Database transaction histories are not complete. Some histories are not
maintained, while others are changed without complete historical tracking.

Traveler Documents
GovTrip does not record changes made to user profiles. If an administrator
changes a traveler’s GovTrip profile, no record is kept of who made the changes
or what changes were made. In addition, management changes to travel
documents are not chronicled. Instead, GovTrip keeps only a list of who edited
the document—not what changes were made—unless the editor specifically notes
the changes. We rarely found such notes in the documents we audited.

Transaction Histories
GovTrip automatically changes transaction histories when routing lists are
updated. Agencies establish routing lists to facilitate the review, processing, and
management of travel documents. When an approving or reviewing official leaves
his or her position and is replaced by another, the new official’s name is
incorrectly shown on old documents as the original reviewer or approver.

Routing Lists
DOI travel officials informed us that routing lists are not being kept current. This
has resulted in cumbersome lists that are outdated and travel documents being
sent to managers for review and approval for travelers they no longer manage. In
addition, some offices are adding multiple backup reviewers and approvers to
each chain of command to keep routing lists usable. This practice enables
managers to approve travel and expenses for trips about which they have no
knowledge. Adding multiple backup reviewers and approvers has also allowed
some users, reviewers, and approvers to submit and review or approve their own
travel.

Without current and complete routing information and document history, an e-
travel system cannot provide DOI with the historical transaction record necessary
to support system changes and expediently process travel. In addition, such
histories are necessary to protect the integrity and validity of user profiles.

 Recommendation

     2. Ensure through ETS-2 development and implementation that complete
        transaction histories are generated and maintained in the new e-travel
        system and that accurate and streamlined routing lists are used.




                                                                                       5
Override of Internal Controls
Prior to e-travel, obtaining supervisory approval was dependent upon getting
physical signatures of approvers who, at times, were at different geographic
locations. Because some travelers needed to make arrangements quickly and
access to their supervisors was unavailable, limited open and blanket
authorizations were developed. With the transition to e-travel, however, travelers
and arrangers can make travel arrangements online and supervisors can quickly
approve them regardless of physical location. Staff practices, however, have not
kept up with technology and the continued use of obsolete travel tools, such as
initiation of travel without prior approval, have resulted in an override of internal
controls of travel. Travel managers told us that most travel is routine and known
about well in advance of the trip.

GovTrip includes features that allow travel authorizations to be created without
managerial review or approval. Autobooking is one approach that allows travelers
to arrange travel without supervisory approval. Other approaches are T-entering
and travel arranging, terms used to describe the method by which an arranger
makes travel arrangements, creates travel documents, and signs the documents on
behalf of the traveler. These features result in travel being created and booked
without the benefit of managerial or traveler review and approval. Our review of
765 vouchers and related authorizations showed that travelers and arrangers
continue to use one of these outdated tools. Almost one third of the trips we
reviewed did not show evidence that management reviewed and approved them in
GovTrip. In addition to trips that do not appear to have been reviewed or
approved, we found 121 trips that were in progress or completed before any
authorizations were submitted in GovTrip.

The ETS-2 calls for continual development of technology so that access,
development, booking, and modification of travel can be made should the need
arise. Because continual development is built into the ETS-2, the extensive use of
travel arrangements and document processing that have not been reviewed or
approved by a manager is no longer justified. Rather, Autobooking and T-entering
need only occur when bona fide emergencies arise or travel must be arranged for
those without legitimate access to the e-travel system. Travel arranging may still
be a viable option for some offices but should be increasingly less necessary, and
heightened controls, if in place, should ensure that reviews are being adequately
conducted.

 Recommendation

     3. Restrict the Autobooking and T-entering features in the new system to
        only bona fide emergency travel or for arranging of travel for those
        without legitimate access to the travel system, with any exceptions to
        these circumstances to be documented and approved by the bureau or
        office head.



                                                                                        6
Reconciliation
DOI’s current practice for validating transactions does not include reconciliation
of financial and travel management records. While a limited amount of GovTrip
information is pushed to the financial systems to initiate payment to travelers, the
data from GovTrip is not regularly compared with any other system to validate
transactions or to ensure that charges processed by other systems, such as charge
cards, are consistent with the approved charges in GovTrip.

DOI does not have a policy to reconcile charge card statements back to travel
vouchers. Consequently, managers rarely perform such reviews. Without this
control, e-travel cost data are less reliable than DOI’s financial system
information. Because the GovTrip cost data is unreliable, DOI makes little use of
it. Although DOI financial records may be more reflective of costs incurred, it
does not mean that the costs incurred conform to travel regulations or match what
was authorized and approved in GovTrip.

We did learn that one bureau has a charge card review policy that requires
managers to reconcile charge card statements with corresponding vouchers and
another has a charge card coordinator to match travel charges to vouchers on a
test basis. In addition, DOI is working with JP Morgan Chase to improve
electronic access to charge card data and facilitate charge card transaction
verification, although this process is still in the testing phase. Because financial
and travel management systems do not effectively communicate at this time,
active management of travel data is critical to ensure that travel information is
accurately reflected.

 Recommendation

     4. Develop and implement policy and procedures that require
        reconciliation of travel transactions among travel, financial, and other
        management systems to ensure data integrity across data management
        systems in DOI.



Minimum Testing Standards
DOI has not established minimum requirements for voucher testing. Thus, every
bureau has implemented its own policy on travel and voucher auditing, which has
resulted in inconsistent travel oversight across DOI. As a result, bureau testing
samples ranged from a baseline size of 1 percent to 100 percent of vouchers, and
testing frequency varied among the bureaus. In addition, some bureaus
emphasized pre-payment audits while others conduct only post-payment audits.
This inconsistency among bureaus does not advance DOI’s goal of providing
consistent quality, efficient, and effective travel services in support of its various
missions.



                                                                                       7
 Recommendation

     5. Establish minimum voucher testing requirements that address sampling,
        method, frequency, error rate, and reporting obligations across DOI.


Audit Check Resolution
Traveler responses to, and supervisor resolution of, audit check flags raised by
GovTrip during the authorization and voucher process often do not adequately
document the justification for travel decisions made and amounts claimed.
GovTrip has built-in audit tests that help travelers and supervisors catch entry
errors and allow the traveler to enter justification for any exceptions to the general
travel requirements. Many responses entered into the justification field for such
exceptions, however, only minimally address the issues flagged or do not address
them at all.

Examples of travelers who failed to justify actions or attach supporting
documentation include instances in which they—

   •   used a rental car without prior authorization;
   •   used both a rental car and a taxi;
   •   used a noncontract airline flight;
   •   changed authorized trip dates or locations;
   •   incurred costs more than 15 percent over the authorized amount; and
   •   claimed higher than standard or authorized lodging or per diem rates.
During our testing, we found 122 instances of the flags having inadequate
justification. The benefit of such audit checks is greatly reduced when travelers
and supervisors do not document sufficient information to resolve the issues that
are presented.

During our interviews of travel officials, it became evident that managers were
unclear as to what their roles and duties were in the travel process and what
impact they had on the process. Many travel managers indicated that approving
officials are not reviewing vouchers thoroughly because the officials focus more
on agency missions or think issues will be caught at another level of review. As a
result, errors are transmitted and approved through the entire process. In addition,
several reviewers and approvers were unable to articulate what they look for and
analyze in the travel documents. One approving official admitted that he had not
had any training and did not know what to look for when reviewing travel
documents. He even asked us to identify what areas he should be assessing in his
reviews.




                                                                                    8
 Recommendation

     6. Provide training, checklists, and periodic tips and best practices to
        travelers and travel managers, so that individual roles and
        responsibilities in the e-travel system are understood and that
        documentary requirements are known and established in the new
        system.


Delegation of Administrative Rights
Currently, anyone in DOI with Federal Agency Travel Administrator (FATA)
designation of level 5 or higher can grant equal administrative access to GovTrip
data to another DOI employee. In addition, management and access restrictions
are inconsistently applied across DOI. For example, some bureaus closely limit
the number of personnel who have administrative rights greater than a reviewer or
approver rights, which include the ability to edit traveler’s information, to fewer
than 50, while other bureaus have allowed more than 1,200 personnel to have this
higher level administrative access to the system. Adjusting this process so that
such delegations are consistently monitored and approved by the appropriate
travel official will increase the data security and integrity of the e-travel system.

 Recommendation

     7. Establish controls through ETS-2 development and implementation that
        limit administrative access rights to the minimum level necessary and
        require approval of administrative delegation of additional rights by the
        appropriate travel officials.


Security of Personally Identifiable Information
Currently, personally identifiable information (PII), such as charge card
information and home mailing addresses, is made available to arrangers and
FATAs in GovTrip. Once this information in entered by the traveler, however,
there is no need for others to see the entire account profile. It is critical to protect
account profiles as with any other form of PII.

 Recommendation

     8. Ensure through ETS-2 development and implementation that personally
        identifiable information, including credit card information, is
        safeguarded and disclosed to only those individuals in the e-travel
        environment that have a bona fide need to know in accordance with
        the Privacy Act.



                                                                                           9
Availability and Reliability of Travel Data
To ensure effective and efficient operation of an e-travel system, controls and
procedures are needed so that all travel documents are processed to completion
and that reliable and timely travel information is available to system oversight and
review officials.

The GovTrip database contains a large number of incomplete travel documents,
which affect the reliability and usefulness of travel data in the system. As of May
2012, we found the following documents in GovTrip, ranging from 6 months to
more than 2 years old.

Authorizations Without Corresponding Vouchers
We found more than 23,500 authorizations, totaling more than $20.4 million,
without corresponding vouchers. Funds for these trips may have been obligated
for travel and possibly ticketed, but there are no associated vouchers or
verification that the trips actually took place. Further, any authorizations created
using Autobooking or T-entering receive no supervisor review if no voucher is
created, increasing opportunities for fraud, waste, and mismanagement.

Vouchers Not Submitted
We found more than 8,000 travel vouchers, totaling more than $7.5 million, that
were created but not submitted, filed, or approved. Because travelers did not
submit these vouchers, they may not have been reimbursed for travel performed.
In addition, any items that are centrally billed do not receive supervisor review or
approval if the traveler does not submit the voucher. Further, because travelers
have not submitted their vouchers but have theoretically incurred travel costs,
accurate reporting on travel costs is not available, regardless of which system is
used to provide the financial data.

Vouchers Partially Approved
We found more than 11,000 vouchers, totaling more than $10.5 million, that were
partially approved but never given final approval for reimbursement. This means
travelers have incurred costs that DOI paid to vendors without any documented
approval by management. If these trips and costs are appropriate, any reporting
that is based on approved vouchers will be incorrect and any payments to
travelers have been inappropriately withheld. If these trips were unauthorized and
travelers improperly incurred costs, then action should have been taken to recoup
these costs from travelers.

Originally, GovTrip provided standard reports as defined by the ETS contract,
and DOI travel managers were able to query travel data directly from GovTrip for
travel management needs. The contractor later removed this access due to its own
operational limitations. To obtain travel management data, travel managers must
now rely on Northrop Grumman to generate reports, a process that we were told
does not always result in accurate or timely production of the requested
information.


                                                                                   10
Although reports from GovTrip are limited, not all travel information available to
DOI originates from this system. For example, DOI’s charge card provider, JP
Morgan Chase, now provides DOI with a report that lists employees who should
expect to receive a paper statement for a given month. Such a report allows
supervisors to better recognize which employees are receiving statements that
need to be reviewed and signed as required by DOI policy. Few managers are
aware of this report as it is difficult to filter and distribute down to office or
individual manager level. Some agency travel officials, however, have been
working to make this report information available to more managers. In addition,
GovTrip has no read-only auditor access to the system, which DOI management
needs and internal and external auditors require, thus preventing effective
oversight.

 Recommendations

    9. Identify authorizations and vouchers that have not been completely
       processed, take actions to either complete or cancel these documents
       in the active GovTrip database.

    10. Through ETS-2 software development and implementation, ensure that
        all future authorizations and vouchers are either processed completely
        or canceled, as appropriate.

    11. Create a directory of standard reports based on DOI and bureau
        needs to provide reliable and timely travel management information
        that includes verification that documents are approved and processed
        within prescribed timeframes, established checks on various travel
        activities, and statistical information for overall travel management.

    12. Ensure that the new e-travel system provides for auditor and
        management read-only access to the travel database.


E-Travel Performance Management
From the initial deployment of DOI’s e-travel through GovTrip, the expectations
of travel management officials were not fully realized by the service delivery
from either GovTrip or its contractor, Northrop Grumman. When we interviewed
DOI travel officials, we were informed that the implementation of program
changes and updates, as well as travel management reporting access, have not met
the officials’ expectations based on their interpretation of the contractual
requirements. Northrop Grumman officials maintained that some of DOI’s
expectations were not requirements of the contractual agreement, something that
neither side could come to an agreement on.




                                                                                 11
With less than a year left on the GovTrip contract, DOI personnel are now
focusing their efforts on the new ETS-2 system, which is planned to have many
new features to assist travelers and DOI to better plan and manage travel. The
new ETS-2 contract issued by GSA was awarded to a single vendor, and DOI is
currently working to move to this new platform. To make the most of this new
travel management opportunity, matching expectations with actual service
delivery will be key to realizing all of the benefits proposed by the new system.
Planning and communication undertaken now will ensure that this travel
management union will be an effective partnership for years to come.

 Recommendation

    13. Proactively work with GSA and the contractor during ETS-2
        implementation and operation to ensure system deliverables, features,
        functionality, and reporting meet DOI and agency expectations.




                                                                                    12
Conclusion and Recommendations
Conclusion
We believe that DOI’s 6 years of experience with the e-travel process has
afforded it significant insight into managing the new e-travel system. DOI should
continue to further refine and integrate e-travel into daily business activities and
assist officials in maximizing the efficiency and cost savings potential of
electronic travel management.

Recommendations
We recommend that the Assistant Secretary for Policy, Management, and Budget:

   1. Prevent the removal of user profiles, vouchers, and authorizations from the
      active production system through ETS-2 development and
      implementation;

   2. Ensure through ETS-2 development and implementation that complete
      transaction histories are generated and maintained in the new e-travel
      system and that accurate and streamlined routing lists are used;

   3. Restrict the Autobooking and T-entering features in the new system to
      only bona fide emergency travel or for arranging of travel for those
      without legitimate access to the travel system, with any exceptions to these
      circumstances to be documented and approved by the bureau or office
      head;

   4. Develop and implement policy and procedures that require reconciliation
      of travel transactions among travel, financial, and other management
      systems to ensure data integrity across data management systems in DOI;

   5. Establish minimum voucher testing requirements that address sampling,
      method, frequency, error rate, and reporting obligations across DOI;

   6. Provide training, checklists, and periodic tips and best practices to
      travelers and travel managers, so that individual roles and responsibilities
      in the e-travel system are understood and that documentary requirements
      are known and established in the new system;

   7. Establish controls through ETS-2 development and implementation that
      limit administrative access rights to the minimum level necessary and
      require approval of administrative delegation of additional rights by
      appropriate travel officials;

   8. Ensure through ETS-2 development and implementation that personally
      identifiable information, including credit card information, is safeguarded



                                                                                  13
   and disclosed to only those individuals in the e-travel environment that
   have a bona fide need to know in accordance with the Privacy Act;

9. Identify authorizations and vouchers that have not been completely
   processed, take actions to either complete or cancel these documents in the
   active GovTrip database;

10. Through ETS-2 software development and implementation, ensure that all
    future authorizations and vouchers are either processed completely or
    canceled, as appropriate;

11. Create a directory of standard reports based on DOI and bureau needs to
    provide reliable and timely travel management information that includes
    verification that documents are approved and processed within prescribed
    timeframes, established checks on various travel activities, and statistical
    information for overall travel management;

12. Ensure that the new e-travel system provides for auditor and management
    read-only access to the travel database; and

13. Proactively work with GSA and the contractor during ETS-2
    implementation and operation to ensure system deliverables, features,
    functionality, and reporting meet DOI and agency expectations.

   Agency Response: In its July 15, 2013 response, DOI generally concurred
   with the recommendations and recognized the need to ensure proper
   controls and processes are in place for the new travel system. DOI listed a
   variety of actions it plans to take to improve travel management across
   DOI. These actions included the implementation of new policy and
   procedures, development of reference materials, clarification of
   responsible official responsibilities, training, and coordination with the
   ETS-2 vendor to ensure system features are developed to ensure stronger
   management controls over travel (see Appendix 2).

   OIG Reply: We consider the 13 recommendations resolved but not
   implemented and will refer them to the Assistant Secretary for Policy,
   Management and Budget, Division of Internal Control and Audit Follow-
   Up, Office of Financial Management for implementation tracking (see
   Appendix 3). DOI requested some clarifications be made in the report,
   which we have incorporated as appropriate.




                                                                              14
Appendix 1: Scope and Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We also determined whether the U.S. Department of the Interior (DOI) and its
bureaus had designed and implemented a system of internal controls or travel
management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel;
management is adequately performing oversight of the travel process; and charge
card statements were verified, approved, and signed by the traveler and
supervisor. We found weaknesses in DOI’s travel management controls. These
weaknesses and recommended corrective actions are discussed in this report and
if implemented, the recommendations should improve DOI’s travel management
controls.

Scope
This was a DOI-wide audit of GovTrip and the related travel system, which we
conducted from November 2010 through April 2012. Our testing included a
selection of travel vouchers, as well as a selection of travel charge card statements
and the related vouchers for travel departures starting in fiscal years 2009 and
2010. The vouchers and charge card statements selected for testing represented
travel for employees all over the United States, invitational travelers, volunteers,
and student interns. In addition, we visited sites in 16 different cities (see Figure
1).

                                            Sites Visited

          •   Homewood, AL                                  •   Portland, OR
          •   Menlo Park, CA                                •   Albuquerque, NM
          •   Newark, CA                                    •   Mescalero, NM
          •   Oakland, CA                                   •   Santa Fe, NM
          •   Sacramento, CA                                •   Arlington, VA
          •   Lakewood, CO                                  •   Herndon, VA
          •   Atlanta, GA                                   •   Reston, VA
          •   Elmwood, LA                                   •   Vancouver, WA


Figure 1. Sites visited during our audit.




                                                                                  15
Methodology
Our review of the system included both a performance audit of the current ETS
contract (GovTrip), with a contract period from August 2007 to November 2013,
and a review of the future ETS-2 contract language, which is slated for
implementation in November 2013. We also assessed DOI’s integrated charge
card program as it relates to travel expenditures.

The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases for all the entities—except the Minerals Management Service
(MMS)—as we were informed that this would be the most accurate and complete
way to establish the voucher universe by bureau and agency. MMS provided us
travel data from the charge card database since they believed this data to be more
accurate than the data from GovTrip. From the data universe, vouchers were
statistically sampled using a stratified methodology, and the associated
authorizations were also examined. Once the testing sample was selected, we
performed testing of travel vouchers and authorizations using the live GovTrip
environment. Use of the live GovTrip system environment for document
examination was required since the travel program has no read-only audit feature,
and no alternative data repository is available to DOI.

The Interior Business Center, Charge Card Support Center (IBC) provided us with
the charge card data. IBC extracted the charge card data from PaymentNet, DOI’s
gateway to integrated charge card program data, which is operated by the
contractor JP Morgan Chase. We did not perform a reliability assessment or any
system tests for this data since, like GovTrip, this is a contractor-developed
system, so our testing was limited to structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to determine
the accuracy and reliability of reconciliation efforts between the GovTrip voucher
and related charge card transactions.

Limitations
During the performance of our audit testing, delays in obtaining access to
information and concerns related to timely reporting necessitated a reduction in
the sample size and testing of both vouchers and charge card statements. We took
steps, however, to allocate the reduction in testing across bureaus, preserving the
integrity of our random and judgmental voucher and charge card statement
samples.

We used the GovTrip and Integrated Charge Card databases to identify travel
vouchers and charge card transactions for travel departures starting in fiscal years
2009 and 2010. We did not perform reliability assessments of the quality of the
data because this was outside the scope of our review. Data from these systems
were used for document and transaction selection and then reviewed using the
electronic and hardcopy records available through DOI. Therefore, the computer-
processed data did not affect the performance of our audit steps.



                                                                                   16
Given that our testing was limited to the live data environment, we were not able
to perform “through the system” testing of the software. Thus, we did not perform
tests of the GovTrip system and software itself. Rather, we structured interview
questions of key DOI personnel to ascertain the security of the system and the
viability of the input data. In addition, testing in a live computerized environment,
and the resulting access limitations to the data, prevented us from re-accessing the
data after the initial testing for clarification or additional explanatory detail. While
this did not change our initial findings in any substantive capacity, it prevented us
from returning to the data to accurately present the monetary impact of our
findings.

At the time of our survey and fieldwork that focused on travel policy, procedures,
and practices, the former MMS had not yet been reformed into the three agencies
of the Bureau of Ocean Energy Management, Bureau of Safety and
Environmental Enforcement, and the Office of Natural Resources Revenue. As
such, our review of travel policy, procedures, and practices was limited to the
former MMS and the transitional Bureau of Ocean Energy Management,
Regulation and Enforcement (BOEMRE). We did not assess any travel policy,
procedures, and practices developed and implemented by the Bureau of Safety
and Environmental Enforcement and the Office of Natural Resources Revenue
since they transitioned out from BOEMRE.

Further, as a result of MMS providing us its travel data through the charge card
system instead of GovTrip, we found that MMS does not use GovTrip for all of
its travel arrangements. This resulted in the inability to find vouchers or
authorizations for some selected travel charges in the GovTrip system. We were
told that vouchers we thought were missing as a result of deletion were more
likely to be missing because they were not input into GovTrip at all. MMS does
not, for example, process its invitational travel through the GovTrip system.
While this data caused our testing selection to be inconsistent with the rest of the
bureaus, we believe that the consistency in the testing selection methodology still
preserved the integrity of our samples.




                                                                                     17
Appendix 2: DOI Response
DOI’s response follows on page 19.




                                     18
                    United States Department of the Interior
                                OFFICE OF THE SECRETARY
                                     Washington, DC 20240
                                          JUL 15 2013


To:            Kimberly Elmore
               Assistant Inspector General for Audits, Inspections and Evaluations

From:          Douglas A. Glenn        ~.{b,e
               Deputy Chief Financial Officer and Director
               Office of Financial Management

Subject:       Draft Evaluation Report- GovTrip Use and Monitoring by the U.S. Department
               ofthe Interior, Report WR-EV-MOA-0006-2011

This memorandum is in response to the Draft Evaluation Report- GovTrip Use and Monitoring
by the U.S. Department of the Interior, Report WR-EV-MOA-0006-2011. The Office of
Financial Management appreciates the opportunity to comment on report's findings and
recommendations and recognizes the need to ensure proper controls and processes are in place
for the U.S. Department ofthe Interior's (DOl) travel program.

OIG Finding - Missing Records

Travel databases have been compromised by the deletion of records. Under E-travel, individual
users electronically arrange, document, and claim travel costs, which DOl then pays. To process
travel electronically, profiles are created for individual travelers, who then create authorizations
and vouchers for travel.

We were unable to audit 60 of the 765 vouchers and associated authorizations we selected for
testing, either because the voucher was no longer in GovTrip or the entire profile for the traveler
had been removed from the system.4 DOl officials told us that the likely reason documents were
not available for review was because the related user profiles had been deleted or detached from
the GovTrip system. Because no audit trail exists in the creation, use, or deletion of user profiles
in GovTrip, this statement could not be verified, nor could changes in user profiles during the
period under review be evaluated. Once records are deleted from the production system, DOl no
longer has live access to the data.




                                                                                                   19
PFM Comment on Finding- Missing Records

There is the possibility of documents not being available due to deleted profiles, however there
are other possible reasons for missing documents and unless there is analysis and evaluation
performed in coordination with the GovTrip owner Northrop Grumman there is doubt as to the
true cause of the missing records. If the cause is the deletion of a profile the documents are not
permanently removed, as profiles cannot be permanently deleted.

Documents and profiles cannot be deleted from GovTrip because that would violate Federal
record retention laws. The documents and profiles still reside in the system, but can only be
accessed by Northrop Grumman managed tables. Northrop Grumman can reestablish a deleted
profile back to the agency by placing the profile in a DOl "no-org" organization. This would
allow the Department FATA to assign the profile to the appropriate bureau organization.

OIG Recommendation -Missing Records

Prevent the deletion of user profiles, vouchers, and authorizations through ETS2 development
and implementation.

PFM Comment on Recommendations - Missing Records

The CGE system will not allow the deletion of profiles or documents. Profiles will be placed in a
deactivated status.

OIG Finding - Accuracy of Traveler Documents, Transaction
History, and Routing Lists

Database transaction histories are not complete. Some histories are not maintained, while others
are changed without complete historical tracking.

Traveler Documents

GovTrip does not record changes made to user profiles. If an administrator changes a traveler's
GovTrip profile, no record is kept of who made the changes or what changes were made. In
addition, management changes to travel documents are not chronicled. Instead, GovTrip keeps
only a list of who edited the document, not what changes were made, unless the editor
specifically notes the changes. We rarely found such notes in the documents we audited.

Transaction Histories

GovTrip automatically changes transaction histories when routing lists are updated. Agencies
establish routing lists to facilitate the review, processing, and management of travel documents.
When an approving or reviewing official leaves his or her position and is replaced by another,
the new official's name is incorrectly shown on old documents as the original reviewer or
approver.




                                                                                                     20
Routing Lists

DOl travel officials informed us that routing lists are not being kept current. This has resulted in
cumbersome lists that are outdated and travel documents being sent to managers for review and
approval for travelers they no longer manage. In addition, some offices are adding multiple
backup reviewers and approvers to each chain of command to keep routing lists usable. This
practice enables managers to approve travel and expenses for trips about which they have no
knowledge. Adding multiple backup reviewers and approvers has also allowed some users,
reviewers, and approvers to submit and review or approve their own travel.

Without current and complete routing information and document history, an ETravel system
cannot provide DOl with the historical transaction record necessary to support system changes
and expediently process travel. In addition, such histories are necessary to protect the integrity
and validity of user profiles.

PFM Comment on Finding - Accuracy of Traveler Documents, Transaction
History, and Routing Lists

Traveler documents - Profile changes may or may not affect incomplete travel documents, so
therefore, it is incumbent upon the traveler to change any profile information on each affected
document that requires profile data to be updated. For document history and changes to content,
analysis of CGE will determine if a system edit can be implemented to require comment on areas
changed.

Transaction Histories - CGE will be evaluated to determine how new routing officials are shown
in past processed travel documents to ensure that they are not updated by removing the old
approving officials and replacing them with new approving officials.

Routing Lists - Keeping routing lists current is important to effective document management of
the travel system. Currently, there exists no standard process within DOl to identify changes in
command chains for travelers beyond the manual process of evaluating FPPS roles to verify
approving officials are accurate. One possible solution may be to mandate a standard exit
clearance process for agency managers that incorporates identifying all business systems the
manager has approval authority within (eg. FBMS, FPPS, PaymentNet, ETS) and requiring
identification of approving official replacements.

The use of multiple approving officials within one routing list is recommended. It addresses
redundancy in process and allows for the identification of secondary approving officials who are
also allowed to approve expense in a specific office, when a primary official is out of the office.
It is incumbent upon offices in each bureau and program to identify only those managers who
have familiarization with the mission requirements of each routing list. As an example, the
Office of Financial Management's, Division Chiefs, share approving official responsibilities for
each Division routing list. This can be done because the Division Chiefs are familiar with each
Divisions mission, due to ongoing weekly leadership meetings.




                                                                                                     21
OIG Recommendations - Accuracy of Traveler Documents, Transaction
History, and Routing Lists

Ensure through ETS2 development and implementation that complete transaction histories are
generated and maintained in the new e-travel system and that accurate and streamlined routing
lists are used.

PFM Comment on Recommendations - Accuracy of Traveler Documents, Transaction
History, and Routing Lists

The development and implementation of CGE will ensure that there are accurate and complete
transaction histories for documents and administrative actions. Reports are available in CGE that
document all actions taken in CGE for documents and administrative actions.

The routing lists in CGE will be dynamic and will be reviewed for accuracy. The use of multiple
approvers will be used to ensure redundancy of action and mitigate risks associated with delayed
approval of authorizations and vouchers. Use of multiple approvers for redundancy is the
recommended industry standard for routing lists based upon long-term experience.

OIG Finding - Override of Internal Controls

Prior toe-travel, obtaining supervisory approval was dependent upon getting physical signatures
of approvers who, at times, were at different geographic locations. Because some travelers
needed to make arrangements quickly and access to their supervisors was unavailable, limited
open and blanket authorizations were developed. With the transition toe-travel, however,
travelers and arrangers can make travel arrangements online and supervisors can quickly approve
them regardless of physical location. Staff practices, however, have not kept up with technology
and the continued use of obsolete travel tools, such as initiation of travel without prior approval;
have resulted in an override of internal controls of travel. Travel managers told us that most
travel is routine and known about well in advance of the trip.

GovTrip includes features that allow travel authorizations to be created without managerial
review or approval. Auto booking is one approach that allows travelers to arrange travel without
supervisory approval. Another approach is T-entering, a term used to describe the method by
which an arranger makes travel arrangements, creates travel documents, and signs the documents
on behalf of the traveler. Both features result in travel being created and booked without the
benefit of managerial or traveler review and approval. Our review of 765 vouchers and related
authorizations showed that travelers and arrangers continue to use Auto booking and T -entering.
One third of the trips we reviewed did not show evidence that management reviewed and
approved them in GovTrip. In addition to trips that do not appear to have been reviewed or
approved, we found 121 trips that were in progress or completed before any authorizations were
submitted in GovTrip.

The ETS2 calls for continual development of technology so that access, development, booking,
and modification of travel can be made should the need arise. Because continual development is
built into the ETS2, the extensive use of travel arrangements and document processing that have



                                                                                                  22
not been reviewed or approved by a manager is no longer justified. Rather, Auto booking and T-
entering need only occur when bona fide emergencies arise or travel must be arranged for those
without legitimate access to the e-travel system.

PFM Comments on Findings - Override of Internal Controls

It is agreed that auto-booking of travel weakens controls as it does not allow for immediate
administrative review of travel arrangements by an approving official in GovTrip prior to the
arrangements fulfillment. The Concur CGE tool will not allow for the auto-booking of travel
arrangements for electronic authorizations without supervisory review and approval.

The description of the T-enter process is not accurate in the audit report. The T-entered function
is designed only to be used for voucher documents. It is designed to allow agency persons, who
manage invitational travelers or political appointees and do not have access to GovTrip, to
process an automated travel voucher submission for those individuals in GovTrip.

The process described in the findings is the travel arranging functionality. Travel arranging
allows for designated persons in an organization to create an authorization while identifying
expense and reserving transportation and hotel accommodations. PFM does not consider the
travel arranging function to be an internal control weakness. The travel arranging function allows
agency managers to consolidate the creation of travel authorizations transportation and other trip
expense requirements under one control point that reports to the supervisory approving official.
This function enhances the ability to control the selection of the mode oftransportation, lodging,
local transportation and miscellaneous expense. It also ensures the proper selection of
appropriated funding to pay for the cost of the trip.

The FTR does not require that the request to travel for official business come from the traveler. It
can come from the approving official or any designee ofthe agency. The decisions of which
expenses to incur and authorize are shared by both the traveler and the government, see FTR
301-2.3, FTR 301-10.4, FTR 301-70.1, FTR 301-70.100, FTR 301-70.200 and FTR 301-70.300.
But the primary responsibility of determining the most advantageous and needed methods of
transportation, per diem, and other expense rests with the government. Designated travel
arrangers provide for the agency determination of what is advantageous in advance of travel in
some offices.

The FTR does allow for travelers to travel in certain circumstances without authorization,
however traveling without authorization must be because obtaining one is not practicable or
possible. For the purposes of travel this would be an emergency situation where failing to travel
would seriously impact the mission of Interior. It is agreed that the majority of travel without
authorization that has been performed to date probably does not meet exceptions allowed by
regulation.




                                                                                                 23
OIG Recommendation - Override of Internal Controls

Restrict the Auto booking and T -entering features in the new system to only bona fide
emergency travel or for arranging of travel for those without legitimate access to the travel
system, with any exceptions to these circumstances to be documented and approved by the
bureau or office head.

PFM Comment on Recommendations - Override of Internal Controls

Auto booking will not be allowed in CGE. T-Entered entering of vouchers will only be allowed
for invitational travelers and travelers who have not been granted access to the CGE system.
Travel arranging will be centralized in each office under a person that reports to the approving
supervisor.

OIG Finding- Reconciliation

DOl's current practice for validating transactions does not include reconciliation of financial and
travel management records. While a limited amount of GovTrip information is pushed to the
financial systems to initiate payment to travelers, the data from GovTrip is not regularly
compared with any other system to validate transactions or to ensure that charges processed
by other systems, such as charge cards, are consistent with the approved charges in GovTrip.

DOl does not have a policy to reconcile charge card statements back to travel vouchers.
Consequently, managers rarely perform such reviews. Without this control, e-travel cost data are
less reliable than DOl's financial system information. Because the GovTrip cost data is
unreliable, DOl makes little use of it. Although DOl financial records may be more reflective of
costs incurred, it does not mean that the costs incurred conform to travel regulations or match
what was authorized and approved in GovTrip.

We did learn that one bureau has a charge card review policy that requires managers to reconcile
charge card statements with corresponding vouchers and another has a charge card coordinator to
match travel charges to vouchers on a test basis. In addition, DOl is working with JP Morgan
Chase to improve electronic access to charge card data and facilitate charge card transaction
verification although this process is still in the testing phase. Because financial and travel
management systems do not effectively communicate at this time, active management of travel
data is critical to ensure that travel information is accurately reflected.

PFM Comments on Finding - Reconciliation

There is a failure to transmit needed charge card data between PaymentNet and the E-Gov Travel
System. The DOl ETS2 implementation team is working with JP Morgan and Concur to develop
an effective charge card data interface; however the integrated nature of the DOl charge card is
proving to be a major challenge to ensure that only travel business line transactions are sent to
CGE. Work is ongoing to develop this functionality and the expectation is that this interface will
be ready relatively soon after system go-live.



                                                                                                 24
OIG Recommendation - Reconciliation

Develop and implement policy and procedures that require reconciliation of travel transactions
among travel, financial, and other management systems to ensure data integrity across data
management systems in DOL

PFM Comments on Recommendation -Reconciliation

PFM will develop policy recommendations regarding the reconciliation of travel data for
accuracy and reporting integrity.

OIG Finding- Minimum Testing Standards

DOl has not established minimum requirements for voucher testing. Thus, every bureau has
implemented its own policy on travel and voucher auditing, which has resulted in inconsistent
travel oversight across DOL As a result, bureau testing samples ranged from a baseline size of 1
percent to 100 percent of vouchers, and testing frequency varied among the bureaus. In addition,
some bureaus emphasized pre-payment audits while others conduct only post-payment audits.
This inconsistency among bureaus does not advance DOl's goal of providing consistent quality,
efficient, and effective travel services in support of its various missions.

PFM Comments on Finding - Minimum Testing Standards Findings

Identifying the testing standards for pre audit and post audit are very important to give the bureau
travel leads a baseline to implement pre and post audit processing. The risk would be if DOl sets
a high threshold that would be untenable due to resource restrictions within each bureau. Several
bureau leads have stated that they would need to increase the numbers of technicians to review
vouchers. There is also a need to understand the values of audit within each document that is
reviewed.

OIG Recommendations- Minimum Testing Standards

Establish minimum voucher testing requirements that address sampling, method, frequency,
error rate, and reporting obligations across DOL

PFM Comments on Recommendations Minimum Testing Standards

PFM will work with DOl Internal Controls staff and with each bureau travel lead to develop a
department-wide standard for pre and post audit standards.




                                                                                                 25
OIG Finding- Audit Check Resolution

Traveler responses to, and supervisor resolution of, audit check flags raised by GovTrip during
the authorization and voucher process often do not adequately document the justification for
travel decisions made and amounts claimed. GovTrip has built-in audit tests that help travelers
and supervisors catch entry errors and allow the traveler to enter justification for any exceptions
to the general travel requirements. Many responses entered into the justification field for such
exceptions, however, only minimally address the issues flagged or do not address them at all.

Examples of travelers who failed to justify actions or attach supporting documentation include
instances in which they-

    •   used a rental car without prior authorization;
    •   used both a rental car and a taxi;
    •   used a noncontract airline flight;
    •   changed authorized trip dates or locations;
    •   incurred costs more than 15 percent over the authorized amount; and
    •   claimed higher than standard or authorized lodging or per diem rates.

During our testing, we found 122 instances of the flags having inadequate justification. The
benefit of such audit checks is greatly reduced when travelers and supervisors do not document
sufficient information to resolve the issues that are presented.

During our interviews of travel officials, it became evident that managers were unclear as to
what their roles and duties were in the travel process and what impact they had on the process.
Many travel managers indicated that approving officials are not reviewing vouchers thoroughly
because the officials focus more on agency missions or think issues will be caught at another
level of review. As a result, errors are transmitted and approved through the entire process. In
addition, several reviewers and approvers were unable to articulate what they look for and
analyze in the travel documents. One approving official admitted that he had not had any training
and did not know what to look for when reviewing travel documents. He even asked us to
identify what areas he should be assessing in his reviews.

PFM Comments on Finding- Audit Check Resolution

Audit Check Resolution is a training issue and should be tied to training standards.

DOl would mitigate some ofthe findings by developing a pre-determined set of selectable
justifications which if selected would require free form justification entry. The supervisor
approval could also require active checking and review of audit items in the ETS system.

Additional reference documents would also provide approving officials with a clear indication of
the things that must be reviewed and justified as part of their duties as a travel approving official.




                                                                                                    26
OIG Recommendations- Audit Check Resolution

Provide training, checklists, and periodic tips and best practices to travelers and travel managers,
so that individual roles and responsibilities in thee-travel system are understood and that
documentary requirements are known and established in the new system.

PFM Comments on Recommendations - Audit Check Resolution

PFM agrees that additional training and reference materials are needed to ensure that travelers
and travel approvers are fully aware of the general policy requirements for temporary duty travel.
This reference material will be a combination of Concur user tools and DOl policy reference
documents.

OIG Finding- Delegation of Administrative Rights

Currently, anyone in DOl with Federal Agency Travel Administrator (FAT A) designation can
grant equal administrative access to GovTrip data to another DOl employee. In addition,
management and access restrictions are inconsistently applied across DOl. For example, some
bureaus closely limit the number ofF ATAs to fewer than 50, while other bureaus have allowed
more than 1,200 FATAs to have administrative access rights to the system. Adjusting this
process so that such delegations are consistently monitored and approved by the appropriate
travel official will increase the data security and integrity of the ETravel system.

PFM Comments on Finding- Delegation of Administrative Rights

The new CGE system does allow bureau and department leads to view administrative histories.
DOl has policy related to when it is acceptable to grant agency staff the role ofFederal Agency
Travel Administrator FA TA in the ETS system.

The statement that a bureau has more than 1,200 FATA's is erroneous. FWS which has the most
FATAs of any bureau in DOl has between 300 and 400 FATA's. FATA assignment is dependent
on the organizational structure of a bureau. If a bureau has a diverse organization structure, and
they have not elected to adopt a centralized travel management process, then that bureau may
need to have more FATA's than one that does not have a diverse structure. All bureaus have
reviewed their organizational structure prior to transitioning to CGE and have made the
determination to reduce the numbers ofETS organizations and the numbers ofFATA's.

OIG Recommendations- Delegation of Administrative Rights

Establish controls through ETS2 development and implementation that limit FATA designations
to the minimum number necessary and require approval of administrative delegation of these
rights by the appropriate travel officials.




                                                                                                  27
PFM Comments on Recommendations - Delegations of Administrative Rights

PFM agrees that stronger controls are needed for designating and monitoring ofFATA's. Policy
will be issued to mandate certain administrative actions. FATA rights will be determined by
bureau lead FATA's. Any person assigned FATA rights will be required to sign an assurance
statement detailing their responsibilities.

The bureau lead FATA will run monthly reports to verify the no new FATA's have been
assigned to the role ofF ATA. If anyone been assigned a FATA role without approval of the lead
and without signing an assurance statement, then that person will have their access to CGE
temporarily suspended pending review of the circumstances surrounding the assignment.

OIG Finding- Security of Personally Identifiable Information

Currently, personally identifiable information (PII), such as charge card information and home
mailing addresses, is made available to arrangers and FATAs in GovTrip. Once this information
in entered by the traveler, however, there is no need for others to see the entire account profile. It
is critical to protect account profiles, as with any other form of PII.

PFM Comments on Findings - Security of Personally Identifiable Information

Profile data must be created prior to a traveler accessing the travel system. This can only be done
by FATA's. Therefore, the FATA is in a need to know situation regarding PII data.
Requirements can be made to ensure that FATA's have passed a sensitive information clearance
and they can be required to take annual PII training.

It is agreed that arrangers in most cases do not need to know the PII of the traveler.

OIG Recommendations -Security of Personally Identifiable Information

Ensure through ETS2 development and implementation that personally identifiable information,
including credit card information, is safeguarded and disclosed to only those individuals in the e-
travel environment that have a bona fide need to know in accordance with the Privacy Act.

PFM Comments on Recommendations - Security of Personally Identifiable Information

Profile data must be created prior to a traveler accessing the travel system. This can only be done
by FATA's. Therefore, the FATA is in a need to know situation regarding PII data.
Requirements can be made to ensure that FATA's have passed a sensitive information clearance
and they can be required to take annual PII training.

It is agreed that arrangers in most cases do not need to know the PII of the traveler. The DOl
ETS2 implementation team is working with CGE to verify that PII can be blocked from travel
arrangers.




                                                                                                    28
OIG Findings- Availability and Reliability of Travel Data

To ensure effective and efficient operation of an e-travel system, controls and procedures are
needed so that all travel documents are processed to completion and that reliable and timely
travel information is available to system oversight and review officials.

The GovTrip database contains a large number of incomplete travel documents, which affect the
reliability and usefulness of travel data in the system. As of May 2012, we found the following
documents in GovTrip, ranging from 6 months to more than 2 years old.

Authorizations Without Corresponding Vouchers

We found more than 23,500 authorizations, totaling more than $20.4 million, without
corresponding vouchers. Funds for these trips may have been obligated for travel and possibly
ticketed, but there are no associated vouchers or verification that the trips actually took place.
Further, any authorizations created using Auto booking or T-entering receive no supervisor
review if no voucher is created, so opportunities for fraud, waste, and mismanagement increase.

Vouchers Not Submitted

We found more than 8,000 travel vouchers, totaling more than $7.5 million that were created but
not submitted, filed, or approved. Because travelers did not submit these vouchers, they may not
have been reimbursed for travel performed. In addition, any items that are centrally billed do not
receive supervisor review or approval if the traveler does not submit the voucher. Further,
because travelers have not submitted their vouchers but have theoretically incurred travel costs,
accurate reporting on travel costs is not available, regardless of which system is used to provide
the financial data.

Vouchers Partially Approved

We found more than 11,000 vouchers, totaling more than $10.5 million, that were partially
approved but never given final approval for reimbursement. This means travelers have incurred
costs that DOl paid to vendors without any documented approval by management. If these trips
and costs are appropriate, any reporting that is based on approved vouchers will be incorrect and
any payments to travelers have been inappropriately withheld. If these trips were unauthorized
and travelers improperly incurred costs, then action should have been taken to recoup these costs
from travelers.

Originally, GovTrip provided standard reports as defined by the ETS contract, and DOl travel
managers were able to query travel data directly from GovTrip for travel management needs.
The contractor later removed this access due to its own operational limitations. To obtain travel
management data, travel managers must now rely on Northrop Grumman to generate reports, a
process that we were told does not always result in accurate or timely production of the requested
information.




                                                                                                 29
Although reports from GovTrip are limited, not all travel information available to DOl originates
from this system. For example, DOl's charge card provider, JP Morgan Chase, now provides
DOl with a report that lists employees who should expect to receive a paper statement for a
given month. Such a report allows supervisors to better recognize which employees are receiving
statements that need to be reviewed and signed, as required by DOl policy. Few managers are
aware of this report, as it is difficult to filter and distribute down to office or individual manager
level. Some agency travel officials, however, have been working to make this report information
available to more managers. In addition, GovTrip has no read-only auditor access to the system,
which DOl management needs and internal and external auditors require, thus preventing
effective oversight.

PFM Comments on Findings -Availability and Reliability of Travel Data

Authorization Without Corresponding Voucher

Open travel authorizations will be reviewed more often. Bureaus and offices will review an
unvouchered authorization report on a monthly basis to ensure that open authorizations are
cancelled if trips did not take place and claimed on voucher if the trip did take place.

Travel authorizations are not obligated in the FBMS system therefore there are not unliquidated
obligations in the Finance system. Unused GSA city pair fares are cancelled and refunded by the
TMC, if they are not used. Non-refundable fares will be reviewed through report to ensure they
are used at future dates or billed back to the traveler for failure to exercise a duty of care in
incurring expense.

Vouchers not Submitted

Vouchers not submitted will be reviewed for validity by monthly reporting and will be cancelled
if they are not valid submissions. Valid travel voucher submissions will be tracked to
performance as it relates to late payment standards identified in the Travel and Transportation
Reform Act.

OIG Recommendations- Availability and Reliability of Travel Data

Identify authorizations and vouchers that have not been completely processed, take actions to
either complete or cancel these documents in the active GovTrip database.

Through ETS2 software development and implementation, ensure that all future authorizations
and vouchers are either processed completely or canceled, as appropriate.

Create a directory of standard reports based on DOl and bureau needs to provide reliable and
timely travel management information that includes verification that documents are approved
and processed within prescribed timeframes, established checks on various travel activities, and
statistical information for overall travel management. Ensure that the new e-travel system
provides for auditor and management read-only access to the travel database.




                                                                                                    30
PFM Comments on Recommendations - Availability and Reliability of Travel Data

PFM will issue new FATA requirements requiring the monthly review of un-vouchered open
travel authorizations. This will ensure that vouchers are submitted in a timely fashion as required
by law.

The ETS2 Implementation team is working diligently to review all 150 canned reports that are
available for FATA's to manage the travel program. In addition, all bureau FATA's are being
trained on the use of the CGE Cognos dynamic reports builder.

Read only access will be developed to accommodate auditor and management access.

OIG Finding- E-Travel Performance Management

From the initial deployment of DOl's e-travel through GovTrip, the expectations oftravel
management officials were not fully realized by the service delivery from either GovTrip or its
contractor, Northrop Grumman. When we interviewed DOl travel officials, we were informed
that the implementation of program changes and updates, as well as travel management reporting
access, have not met the officials' expectations based on their interpretation of the contractual
requirements. Northrop Grumman officials maintained that some of DOl's expectations were not
requirements of the contractual agreement, something that neither side could come to an
agreement on.

With less than a year left on the GovTrip contract, DOl personnel are now focusing their efforts
on the new ETS2 system, which is planned to have many new features to assist travelers and
DOl to better plan and manage travel. The new ETS2 contract issued by GSA was awarded to a
single vendor, and DOl is currently working to move to this new platform. To make the most of
this new travel management opportunity, matching expectations with actual service delivery will
be key to realizing all of the benefits proposed by the new system. Planning and communication
undertaken now will ensure that this travel management union will be an effective partnership
for years to come.

PFM Comments on Findings - E-Travel Performance Management

DOl is working diligently with both GSA and Concur to ensure that DOl requirements are met to
ensure better and more effective functionality of the ETS system and to provide better
management oversight of the travel management system.

OIG Recommendations - E- Travel Performance Management

Proactively work with GSA and the contractor during ETS2 implementation and operation to
ensure system deliverables, features, functionality, and reporting meet DOl and agency
expectations.




                                                                                                 31
PFM Comment on Recommendation - E-Travel Performance Management

Through evaluation of the current management process DOl is working with both Concur and
GSA to ensure that the CGE system is continually developed to increase usability and enhance
management controls.




                                                                                               32
Appendix 3: Status of
Recommendations
 Recommendations       Status             Action Required
                                       The recommendations
                                       will be referred to the
                                       Assistant Secretary for
                                      Policy, Management and
                                          Budget, Division of
                   Resolved but not     Internal Control and
      1-13
                     implemented      Audit Follow-up, Office
                                      of Financial Management
                                              for tracking
                                       implementation and to
                                          obtain responsible
                                      officials and target dates.




                                                              33
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
